                                                            U.S. Department of Transportation
                                                                       Office of Public Affairs
                                                                            Washington, D.C.
                                                             www.dot.gov/affairs/briefing.htm

                                                                                      News

DOT 203-04                                           Contact: Bill Mosley
Wednesday, November 17, 2004                         Tel.: (202) 366-4570
                                                     Contact: David Barnes
                                                     Tel.: (202) 366-6312

DOT Receives Fourth Consecutive "Clean" Audit of Annual Financial
Statements

        U.S. Transportation Secretary Norman Y. Mineta today announced that the U.S.
Department of Transportation (DOT) received its fourth consecutive unqualified, or
"clean," audit opinion on its consolidated financial statements. The audit opinion is from
the DOT Inspector General on the fiscal year 2004 statements.

        Consolidated financial statements show how the Department is accountable for its
total budgetary resources of $105 billion provided by American taxpayers for federal
transportation activities.

        "Being responsible with taxpayer dollars is an obligation we take seriously,"
Secretary Mineta said. “The Department of Transportation’s financial stewardship means
that taxpayers are getting their money’s worth.”

       “Given the fact that DOT’s financial operations – including assets, liabilities and
program costs – are comparable in size to a Fortune 100 company, it is vital that
taxpayers know that the Department’s financial statements are in order,” DOT Inspector
General Kenneth M. Mead said.

         “The Department and each of the Operating Administrations made extraordinary
efforts this year to achieve this clean opinion,” IG Mead said. “The Federal Aviation
Administration in particular deserves credit for addressing significant challenges this
year, especially implementing new accounting and procurement systems. Agencies
funded by the Highway Trust Fund, however, were less successful overcoming the
financial management deficiencies we reported last year. It was only due to a concerted
effort to clean up flawed data that allowed the Federal Highway Administration to
generate reliable financial statements. Continued executive level attention, backed by
skilled resources to implement disciplined processes, will be critical to correct the
remaining deficiencies.”

       In addition to the department-wide audit, individual audits were conducted on the
Federal Aviation Administration and the Highway Trust Funds. Both received
unqualified, or “clean,” opinions. The audits were performed by Office of Inspector
General staff, KPMG LLP, and Clifton Gunderson LLP. The audits were transmitted to
the Office of Management and Budget on Nov. 15.

                                          -END-
